Report No. D-2007-081       April 6, 2007




    Financial Management of Hurricane
   Katrina Relief Efforts at the U.S. Army
            Corps of Engineers
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CEFMS                 Corps of Engineers Financial Management System
EM                    Emergency Management
EP                    Engineering Pamphlet
FEMA                  Federal Emergency Management Agency
MSC                   Major Subordinate Command
RM                    Resource Management
USACE                 U.S. Army Corps of Engineers
                            INSPECTOR GENERAL

                           DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                             April 6, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Financial Management of Hurricane Katrina Relief Efforts at the
         U.S. Army Corps of Engineers (Report No. D-2007-081)


        We are providing this report for review and comment. We performed this audit in
support of Public Law 109-62. We considered management comments on a draft of this
report in preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The U.S. Army Corps of Engineers comments were partially responsive. Therefore, we
request that the Commander, Army Corps of Engineers provide comments on
Recommendation 4 by May 7, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDDFS @dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept
the / Signed / symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Lorin T. Pfeil at (703) 325-5568 (DSN 221-5568) or Ms. Pauletta P. Battle at (703)
325-6020 (DSN 221-6020). See Appendix E for the report distribution. The team
members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                           ;4.~~
                                             Pa   . Granetto

                                Assistant Insp ctor General and Director

                                  Defense Financial Auditing Service

               Department of Defense Office of Inspector General
Report No. D-2007-081                                                      April 6, 2007
  (Project No. D2006-D000FE-0010.001)

      Financial Management of Hurricane Katrina Relief Efforts at
                  the U.S. Army Corps of Engineers

                                Executive Summary

Who Should Read This Report and Why? DoD financial managers and personnel
responsible for the accounting and reporting of reimbursable funds to support national
emergencies should read this report. The report discusses the accounting and reporting of
the Federal Emergency Management Agency (FEMA) reimbursable funding authority as
well as funding received from Congress to support Hurricane Katrina relief efforts at the
United States Army Corps of Engineers (USACE).

Background. USACE is the nation’s primary Federal engineering agency. USACE also
provides technical advice to State and Federal officials by inspecting and assessing
damaged areas. On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf
Coast causing major damage and loss of life in Alabama, Louisiana, and Mississippi.
FEMA, the primary Federal agency responsible for providing emergency relief in the
United States, gave reimbursable funding authority to USACE to provide support and
other humanitarian assistance to the victims of the hurricane. In September 2005, the
House Government Reform Committee and its Subcommittee on Financial Management
(now the Subcommittee on Government Management, Finance, and Accountability)
tasked the Secretary of Homeland Security to coordinate with the DoD Office of
Inspector General to audit and provide oversight to ensure that FEMA funds were used
for their intended purposes. This report is one in a series discussing the use of DoD
resources to support Hurricane Katrina relief efforts.

Results. USACE reporting of obligations related to Hurricane Katrina relief efforts was
not always timely and efficient. Specifically, USACE did not make timely updates to the
Corps of Engineers Financial Management System or perform timely closeouts of
mission assignments. USACE also did not reconcile mission assignments and
corresponding amendments with FEMA and did not track all funding from Congress. As
a result, USACE increased the risk of not accurately reporting obligations and
expenditures. (See the Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers concurred with the recommendations and comments were fully responsive,
except for one recommendation. Thus, we request that the Commander, U.S. Army
Corps of Engineers comment on this report by May 7, 2007. See the Finding section of
the report for a discussion on management comments and the Management Comments
section of the report for the complete text of the comments.

Management Actions. The Commander, U.S. Army Corps of Engineers was proactive
in efforts to improve financial management and is in the process of revising EP 37-1-6.
The estimated released date for the revised EP 37-1-6 is June 1, 2007.




                                           ii
Table of Contents

Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  2

Finding
     Accounting for U.S. Army Corps of Engineers Hurricane Relief Efforts    3



Appendixes
     A.   Scope and Methodology                                              9
     B.   Prior Coverage                                                    10
     C.   Other Matters of Interest                                         11
     D.   Closeout Process                                                  12
     E.   Report Distribution                                               13

Management Comments
     U.S. Army Corps of Engineers                                           15
Background

           On August 29, 2005, Hurricane Katrina made landfall on the U.S. Gulf Coast
           causing major damage and loss of life in Alabama, Louisiana, and Mississippi.
           Following Hurricane Katrina, Hurricane Rita hit the Texas-Louisiana border on
           September 24, 2005, and Hurricane Wilma hit Florida on October 24, 2005. The
           Robert T. Stafford Disaster Relief and Emergency Assistance Act (the Stafford
           Act) authorizes the Federal Emergency Management Agency (FEMA) to provide
           disaster response and recovery assistance to affected States and jurisdictions.
           Further, the Stafford Act authorizes FEMA to engage the resources of other
           Federal departments and agencies to provide disaster assistance. Under this
           authority, FEMA tasked the U.S. Army Corps of Engineers (USACE) to perform
           specific mission assignments * to provide relief and other humanitarian assistance
           to the victims of the hurricanes. We have used the term Hurricane Katrina relief
           efforts to describe relief efforts for all three hurricanes.

           This audit was performed in support of Public Law 109-62, “Second Emergency
           Supplemental Appropriations Act to Meet Immediate Needs Arising from the
           Consequences of Hurricane Katrina, 2005,” September 8, 2005. The Law
           requires the Inspector General, Department of Homeland Security, to audit and
           investigate funds expended on Hurricane Katrina response and recovery activities.
           Additionally, the House Government Reform Committee and its Subcommittee on
           Financial Management (now the Subcommittee on Government Management,
           Finance, and Accountability) issued a letter to the Secretary of Homeland
           Security on September 15, 2005. This letter tasked the Secretary to coordinate
           with the DoD Office of Inspector General to increase its auditing and
           investigative capabilities to ensure that the funds were used for their intended
           purposes. This report is specific to USACE, but is one in a series of reports
           discussing the use of DoD resources to support the Hurricane Katrina relief
           efforts.

           U.S. Army Corps of Engineers. USACE is the nation’s primary Federal
           engineering agency. During times of emergencies and natural disasters, USACE
           duties include, but are not limited to, providing drinking water and ice, cleaning
           up debris, providing auxiliary power, and making repairs. Additionally, USACE
           provides technical advice to State and Federal officials by inspecting and
           assessing damaged areas. In response to Hurricane Katrina, FEMA provided
           USACE funding authorization through 552 mission assignments and respective
           amendments, valid for reimbursable work. Upon receipt of mission assignments,
           USACE established work items in the Corps of Engineers Financial Management
           System (CEFMS). USACE received mission assignments, either verbal or
*
    Mission assignments are funding documents for a specific mission (task) that FEMA provided to USACE
    that described a particular assistance or tasking that USACE performed.

                                                    1
     written, directly from FEMA to enter funding into CEFMS. All verbal
     authorizations were documented by USACE personnel in a Memorandum for
     Record, followed by a FEMA Form 90-129 within two to three days.

     Mission Closeouts. USACE Engineering Pamphlet 37-1-6, “Resource
     Management Functional Guide for Civil Emergency Management Programs,”
     August 1, 2005 (EP 37-1-6), requires financial closeout of a mission as soon as
     possible, but no later than 90 days after physical completion of the mission. Upon
     completion of work on a mission assignment, USACE must notify FEMA and
     prepare a physical closeout memorandum to be signed by FEMA. After the
     physical closeout, all funds pertaining to the mission assignment should be
     de-committed and de-obligated. Once the funds are de-committed and
     de-obligated, USACE issues a financial closeout memorandum to FEMA.


Objectives

     The audit objective was to determine whether DoD, specifically USACE,
     obligations and expenditures related to the Hurricane Katrina reconstruction and
     relief efforts were timely and efficiently executed and in accordance with
     applicable laws and regulations. See Appendix A for a discussion of the scope
     and methodology related to the audit objective and Appendix B for prior
     coverage.


Review of Internal Controls

     The U.S. Army Corps of Engineers internal controls are adequate. We identified
     no material internal control weaknesses in the reporting of obligations and
     expenditures related to Hurricane Katrina relief efforts.




                                         2
            Accounting for U.S. Army Corps of
            Engineers Hurricane Relief Efforts
            USACE reporting of obligations related to Hurricane Katrina relief efforts
            was not always timely and efficient. Specifically, USACE did not make
            timely updates to CEFMS or perform timely closeouts of mission
            assignments. This occurred because USACE resource management civil
            disaster policies lacked detailed guidance on entering data in CEFMS and
            USACE personnel did not comply with USACE resource management
            civil disaster policies for closing out mission assignments. In addition,
            USACE did not reconcile mission assignments and corresponding
            amendments with FEMA. USACE also did not efficiently track all
            supplemental funding received from Congress by specific hurricane. As a
            result, USACE increased the risk of not accurately reporting obligations
            and expenditures.


Reporting of Obligations

     USACE reporting of obligations related to Hurricane Katrina relief efforts was
     not always timely and efficient. Specifically, USACE did not make timely
     updates to CEFMS. In addition, mission assignments in CEFMS were obligated
     beyond the required closeout date. As a result, USACE increased the risk that
     some information reported in CEFMS is not accurate.

     CEFMS Updates. USACE districts did not make timely updates to CEFMS.
     Specifically, as of May 2006, pre-declaration funds for mission assignments
     issued from August 2005 through October 2005 remained in CEFMS with
     funding currently obligated. Pre-declaration funds activate emergency support
     personnel prior to the occurrence of a disaster and can only be used for a
     maximum of 7 to 10 days. For the nine USACE sites reviewed, $20.9 million in
     allocations and $2.7 million in obligations remained open in CEFMS. Because
     pre-declaration funds can only be used for 7 to 10 days, there should have been no
     open obligations associated with pre-declaration mission assignments as of
     May 2006. Once these missions were determined to be physically and financially
     complete, USACE should have issued closeout memorandums and returned
     excess funds to FEMA. However, as of November 2006, USACE had
     $19.9 million in allocations and $1.2 million in open obligations remaining in
     CEFMS for pre-declaration funding.

     District Closeouts. USACE districts were not timely in closing out mission
     assignments. According to USACE documentation, FEMA issued 552 mission
     assignments and respective amendments for USACE to provide disaster
                                         3
     assistance. We reviewed 535 of those mission assignments and amendments as
     part of our sample. In May 2006, 256 mission assignments and amendments,
     totaling $1.2 billion, remained open in CEFMS although the mission assignment
     timelines were complete. As of October 2006, 228 mission assignments, totaling
     $1.14 billion, remained open with USACE. The table shows the USACE sites
     with open mission assignments.

               Open Mission Assignments in CEFMS as of October 2006

           USACE Sites             Number of Mission        Mission Assignment Total
                                    Assignments and         Dollar Values (millions)
                                     Corresponding
                                     Amendments

              Mobile                         16                      $ 153.3

           New Orleans                       7                            3.1

            Vicksburg                        59                        196.0

      South Atlantic Division                20                           1.8

            Charleston                       15                        249.6

           Jacksonville                      44                        223.4

             Memphis                         10                          3.2

            Wilmington                       22                        262.4

            Galveston                        35                         48.3

              Totals                         228                     $1,141.1




Civil Disaster Policies

     CEFMS Guidance. USACE resource management civil disaster policy,
     EP 37-1-6, provides guidance on executing USACE Emergency Management
     Program and deployment instructions, but lacks specific details on how to enter
     data into CEFMS. At several districts, the mission assignment values were
     entered as a cumulative amount in CEFMS instead of as individual amounts as
     received from FEMA. For example, USACE initially received verbal mission

                                         4
    assignment 1605DR-AL-COE-SAD-09 totaling $5 million. USACE entered the
    $5 million into CEFMS. When USACE received the hardcopy FEMA
    Form 90-129, the amount reflected on the document was $20 million. Instead of
    removing the initial $5 million from CEFMS and re-entering $20 million,
    USACE added an amendment totaling $15 million. The amount in CEFMS was
    the correct cumulative amount. However, supporting documentation was
    inconsistent with the entries into CEFMS and reconciliation with FEMA was
    difficult and time consuming. USACE should update EP 37-1-6 with detailed
    guidance on entering data into CEFMS to facilitate reconciliation to supporting
    documentation and data reported by FEMA.

    Closeout Requirements. USACE did not comply with USACE resource
    management civil disaster policies for closing out mission assignments.
    EP 37-1-6 requires closeout within 90 days after the mission is completed. Once
    the mission is completed, USACE should issue a physical closeout memorandum
    notifying FEMA. Within 90 days after physical closeout, USACE should
    de-obligate the remaining funds and issue a financial closeout memorandum to
    FEMA specifying the funds available for return. For example, physical closeout
    of mission assignment 7220SU-AL-COE-SAD-22 was official on
    September 6, 2005. As of June 2006 (more than 230 days), USACE had not
    closed out the mission assignment. See Appendix D for an illustration of USACE
    physical and financial closeout processes for mission assignments.


Reconciliation of FEMA Mission Assignments

     Inconsistencies existed between the information reported by FEMA and the
     information in CEFMS. Specifically, FEMA and USACE reported different
     mission assignment totals. After we initially reconciled information provided by
     FEMA and USACE, we identified that USACE was missing 131 mission
     assignments. During our site visits and through correspondence with the USACE
     districts in our sample, we requested copies of the missing mission assignments.
     The districts were unable to locate the missing mission assignments and
     corresponding amendments. After we met with USACE headquarters personnel,
     USACE personnel located 81 of the missing mission assignments, but
     50 remained missing. This directly impacts the accuracy of the information
     reported in CEFMS. USACE districts should reconcile mission assignments
     monthly with FEMA to ensure that the information reported in CEFMS is
     consistent with the information reported by FEMA. This would also ensure
     receipt of all mission assignments, the correct dollar value of mission
     assignments, and coordinated closeouts of all mission assignments.

    USACE Billings. We reviewed a random sample of 110 billings, totaling
    $297.9 million, for nine USACE sites. As of May 2006, FEMA had not paid 26
                                        5
    of the 110 billings. The unpaid billings make up $264 million of the total dollars
    reviewed. For example, one of the bills under mission assignment
    1603DR-LA-COE-MVD-07, in the amount of $173.6 million, reflected a bill date
    of December 2005, but was not paid by FEMA as of May 2006. According to
    USACE personnel, FEMA is behind in processing payments and it is unclear how
    many of the USACE bills FEMA will return unpaid.

    FEMA Closeouts. Although USACE provided timely memorandums to FEMA
    to close out mission assignments that have met the requirements for physical and
    financial closeout, in some instances obligations for these mission assignments
    remained in CEFMS. Obligations remained in CEFMS because FEMA did not
    respond timely to USACE memorandums to closeout the mission assignments.
    According to USACE personnel, the obligations remain in CEFMS until FEMA
    issues negative mission assignments to de-obligate the funds. Because of
    FEMA’s delayed response, USACE was prevented from timely updating CEFMS
    and CEFMS showed obligated funds that should have been de-obligated. For
    example, on January 10, 2006, USACE issued a memorandum to FEMA to close
    out mission assignment 3214EM-AL-COE-SAD-07. The mission assignment
    was determined to be physically and financially complete. As of May 2006,
    FEMA had not issued the proper documentation revoking the funds. As a result,
    USACE could not remove the funds from CEFMS. In addition to FEMA not
    responding to closeout memorandums, FEMA also closed out mission
    assignments and
    de-obligated funds without proper and timely notification to USACE.


Tracking Congressional Funding

     USACE did not efficiently track by specific disaster all supplemental funding
     received from Congress. USACE received supplemental funding from Congress
     in the second Congressional Appropriation for Hurricane Katrina,
     Public Law 109-62, the third appropriation, Public Law 109-148, and the fourth
     appropriation, Public Law 109-234. For the second supplemental appropriation,
     USACE was required by law to report obligations and expenditures to the Office
     of Management and Budget, as well as to Congress, on a weekly basis until
     USACE reached an obligation rate of 100 percent. For the third and fourth
     supplemental funding appropriations, there were no reporting requirements. In
     anticipation of future requests from Congress, USACE has been tracking their
     obligations and expenditures for the third and fourth supplemental
     appropriations. This information, however, was not gathered and reported
     throughout the process, which created a labor-intensive effort to summarize the
     information. Additionally, because of the lack of system tracking codes attached
     to each appropriation, USACE had to pull the information manually. This
     process increased the risk for errors and improper reporting. Because this

                                        6
    funding does not expire, the lack of tracking codes unique to a specific disaster
    also increases the difficulty to track obligations and expenditures in the future.
    USACE should implement system tracking codes specific to each disaster for
    supplemental funding to ensure the proper tracking of information and to
    minimize human error.


Recommendations, Management Comments, and Audit
  Response

    We recommend that the Commander, U.S. Army Corps of Engineers:

         1. Update Engineering Pamphlet 37-1-6 with detailed guidance on
    entering data into the Corps of Engineers Financial Management System to
    facilitate reconciliation to supporting documentation and data reported by
    the Federal Emergency Management Agency and uniformity among the U.S.
    Army Corps of Engineers districts.

    Management Comments: The Commander, U.S. Army Corps of Engineers
    concurred with the recommendation. Updates to EP 37-1-6 include instructions
    on how to reconcile verbal mission assignments with actual mission assignments.

        2. Update Engineering Pamphlet 37-1-6 to reflect the reasonable
    timelines needed to effectively perform mission assignment closeouts.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred with the recommendation. EP-37-1-6, dated August 2005, states that
    financial closeouts should be completed no later than 90 days after mission
    completion. The revised EP-37-1-6, scheduled for release on June 1, 2007, has a
    new chapter discussing detailed timelines for physical and financial closeouts.

         3. Require districts to perform monthly reconciliations of mission
     assignments with the Federal Emergency Management Agency to ensure
     that the information reported in the Corps of Engineers Financial
     Management System is consistent with the information reported by the
     Federal Emergency Management Agency. This would also ensure receipt of
     all mission assignments, the correct dollar value of mission assignments, and
     coordinated closeouts of all mission assignments.

     Management Comments. The Commander, U.S. Army Corps of Engineers
     concurred with the recommendation. The revised EP-37-1-6, scheduled for
     release in June 2007, includes a requirement for monthly reconciliation between
     the U.S. Army Corps of Engineers’ and the Federal Emergency Management
     Agency’s financial management systems.

                                         7
   4. Implement system tracking codes specific to each disaster and by
appropriation for supplemental funding to ensure information is properly
tracked and to minimize human error.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred with the recommendation. The U.S. Army Corps of Engineers is
working to enhance the report to capture all direct funds “identified to a specific
hurricane or event for the non-FEMA supplemental funding” received.

Audit Response. Comments from the Commander, U.S. Army Corps of
Engineers are partially responsive. We request clarification on the U.S. Army
Corps of Engineers process to identify supplemental funding by specific disaster
and appropriation.




                                     8
Appendix A. Scope and Methodology
   We performed this audit to determine whether DoD obligations and expenditures
   related to the Hurricane Katrina reconstruction effort were timely and efficiently
   executed and were in accordance with applicable laws and regulations. This audit
   was required by Public Law 109-062.

   We performed our audit at USACE Headquarters and nine USACE sites from
   February 2006 through November 2006 in accordance with generally accepted
   government auditing standards. We interviewed USACE personnel working in
   the areas of resource management, emergency management, and budget. We
   obtained CEFMS queries detailing USACE mission assignments by district and
   reviewed engineering policies and regulations for civil works emergency
   management. We visited and conducted interviews at the Mobile, New Orleans,
   Vicksburg, and Charleston Districts and the South Atlantic Division to obtain
   documentation on obligations and expenditures. We also requested
   documentation regarding obligations and expenditures from the Jacksonville,
   Memphis, Wilmington, and Galveston Districts through a data call. We reviewed
   mission assignments and the corresponding amendments and billings. We also
   reviewed supplemental funding, including work authorization documents, detailed
   cost ledger, and reports on status of appropriation and work allowances, civil
   works funds, and the civil status of funds by appropriation.

   Use of Computer-Processed Data. We relied on computer-processed data such
   as queries from CEFMS to determine the universe of the items we reviewed. We
   did not evaluate the general and application controls for CEFMS. We compared
   the CEFMS data to hard copy mission assignments and amendments to determine
   the accuracy and reliability of the computer-processed data. Not performing the
   general and application controls of CEFMS did not affect the results and
   conclusions of our review.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk areas.




                                       9
Appendix B. Prior Coverage
   During the past 5 years, the GAO, DoD IG, and the Naval Audit Services have
   published reports relating to the Hurricane Katrina relief efforts. Unrestricted
   GAO reports and testimonies can be accessed at http://www.gao.gov.
   Unrestricted DoD IG reports can be accessed over the Internet at
   http://www.dodig.mil. Unrestricted Navy reports can be accessed at
   http://www.hq.navy.mil/NavalAudit.


 GAO

   GAO Report No. GAO-06-643, “Better Plans and Exercises Needed to Guide the
   Military’s Response to Catastrophic Natural Disasters,” May 2006

   GAO Report No. GAO-06-454, “Army Corps of Engineers Contract for
   Mississippi Classrooms,” May 2006


 DoD IG

   DoD IG Report No. D-2006-118, “Financial Management of Hurricane Katrina
   Relief Efforts at Selected DoD Components,” September 27, 2006

   DoD IG Report No. D-2006-116, “Ice Delivery Contracts Between International
   American Products, Worldwide Services and the U.S. Army Corps of Engineers,”
   September 26, 2006

   DoD IG Report No. D-2006-109, “Response to Congressional Request on the
   Water Delivery Contract Between the Lipsey Mountain Spring Water Company
   and the United States Army Corps of Engineers,” August 29, 2006


 Naval Audit Services

   Naval Audit Service Report No. N2006-0047, “Cash Accountability of
   Department of the Navy Disbursing Officers for Hurricane Katrina Relief Funds,”
   September 22, 2006

   Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
   February 16, 2006


                                       10
Appendix C. Other Matters of Interest

Interest Charges

     USACE is required to pay interest charges incurred on FEMA-related work.
     According to an October 10, 2000, memorandum issued by USACE to the Major
     Subordinate Commands (MSC), any interest charges incurred against projects
     related to FEMA are not reimbursable. Specifically, under the Stafford Act, the
     responsible party should pay the interest charges from the applicable overhead
     account. Thus, based on information provided by FEMA and USACE, DoD OIG
     auditors selected a random sample of 110 bills to review.

     We determined that there was $2,069 in total interest charges. USACE personnel
     stated that in accordance with the October 2000 memorandum, interest charges
     incurred and billed to FEMA are reversed in future billing cycles. We did not
     follow each interest charge to a future billing cycle to validate that interest
     charges were reversed. However, negative interest charges were included on the
     bills in the sample, indicating that USACE personnel were reversing the charges.

     Although interest charges were determined to be insignificant for this audit, the
     potential exists for interest charges to be significant in the future. Further, to
     comply with the Stafford Act and EP 37-1-6 for future disasters and to avoid the
     potential for more significant interest charges, USACE should enforce the timely
     submittal of vendor invoices and bills. Timely submittal of vendor invoices
     facilitates timely payments and thus eliminates interest costs.




                                         11
Appendix D. Closeout Process




   Physical Closeout Process Notes:
   1. All physical closeouts are done by an Emergency Support Function (ESF #3) Team
   Leader/Alternate Team Leader and sent to the Division once it is signed by FEMA.

   2. Each mission assignment issued by FEMA specifies a start date and an end date. The closeout
   process begins upon completion of the work on the mission assignment, which should correspond
   to the mission assignment end date.

   3. Emergency Management (EM) is responsible for notifying FEMA and Resource Management
   (RM) when the work is completed. RM maintains a copy of the physical closeout memorandum
   on file.

   Financial Closeout Process Notes:
   4. A signed physical closeout memorandum from the Division EM Office initiates financial
   closeout. Financial closeout should be accomplished as soon as possible, but not later than 90
   days after mission completion.

   5. A PR&C is a Purchase Request and Commitment.


                                              12
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Director, Federal Emergency Management Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs

                                          13
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        14
Commander, U.S. Army Corps of Engineers
Comments




                    15
16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Lorin T. Pfeil
Pauletta P. Battle
Shaneen J. Beamish
Theresa S. Hull
Leilani M. Melendez
Erin S. Hart
